           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of                                         Date:    September 7, 2005
           Audited Financial Statements for
           FY 2004 and FY 2003, Highway Trust Fund
           (Reissued June 30, 2005)
           QC-2005-007

  From:    Theodore P. Alves                                                      Reply to
                                                                                  Attn. of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    The Secretary

           The audit of the Highway Trust Fund (HTF) Financial Statements as of and for the
           years ended September 30, 2004, and September 30, 2003, was completed by
           Clifton Gunderson LLP, of Calverton, Maryland (see Attachment). We performed
           a quality control review of the audit work to ensure that it complied with
           applicable standards. These standards include the Chief Financial Officers Act;
           Generally Accepted Government Auditing Standards; and the Office of
           Management and Budget (OMB) Bulletin 01-02, “Audit Requirements for Federal
           Financial Statements.”

           The Clifton Gunderson audit report, dated November 8, 2004, concluded that the
           financial statements including the accompanying notes presented fairly, in all
           material respects, in conformity with accounting principles generally accepted in
           the United States, HTF’s assets, liabilities, and net position as of
           September 30, 2004 and September 30, 2003 and their related net costs; changes
           in net position; budgetary resources; and reconciliation of net costs to budgetary
           obligations for the years then ended.

           The report also pointed out that HTF agencies, 1 and the Federal Highway
           Administration in particular, faced significant challenges in fiscal year 2004.
           These agencies not only faced the accelerated OMB-mandated deadline of
           November 15, 2004, for audited financial statements, they also undertook an

           1
               The Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit
               Administration, Federal Railroad Administration, Federal Motor Carrier Safety Administration, and Bureau of
               Transportation Statistics.
extensive effort to correct longstanding financial management weaknesses that
Clifton Gunderson previously reported. HTF agency executives and financial
managers and the Assistant Secretary for Budget and Programs/Chief Financial
Officer made a concerted effort to clean up bad data and institute more disciplined
management practices. However, because of the severity of the problems that
existed and the limited time available to design and implement corrective actions,
FHWA was not able to make enough progress to correct the underlying process
deficiencies. Continued executive-level attention, backed by skilled resources to
implement disciplined processes, will be needed to correct the remaining
deficiencies.

The report categorized problems into the following four material weaknesses, one
reportable condition, and five instances of noncompliance with laws and
regulations.

Material Weaknesses

      1. Financial accounting processes do not fully support financial
         management or facilitate the timely preparation of accurate financial
         statements,
      2. Reconciliation procedures,
      3. Grants financial management oversight, and
      4. Information technology control weaknesses.

Reportable Condition

      1. Federal lands      highway     program    transactions   processing   and
         reconciliations.

Noncompliance with Laws and Regulations

      1.   Single Audit Act of 1984,
      2.   Federal Managers’ Financial Integrity Act of 1982,
      3.   Anti-Deficiency Act, as amended,
      4.   Government Performance and Results Act, and
      5.   Federal Financial Management Improvement Act of 1996

Clifton Gunderson made 24 recommendations for corrective actions. We agreed
with those recommendations. In a November 10, 2004 response to the draft
report, the Assistant Secretary for Budget and Programs/Chief Financial Officer
concurred with the weaknesses, generally agreed with the recommendations, and
submitted a detailed action plan to implement the recommendations.
The consequence of the material weaknesses, particularly the deficiencies related
to the financial accounting process, became evident after the audit report was
issued when the Federal Highway Administration disclosed an error in the
Highway Trust Fund Statement of Budgetary Resources as of September 30, 2004.
The error resulted in a $2.966 billion understatement of previously reported Total
Budgetary Resources. The FY 2004 Highway Trust Fund financial statements,
notes, and supplemental information have been corrected, and Clifton Gunderson
reissued and dual dated (November 8, 2004 and June 30, 2005) its audit report.
Note 15 of the revised financial statements provides additional details on the
restatement. In our opinion, the audit work performed by Clifton Gunderson
complied with applicable standards.

We appreciate the cooperation and assistance of the HTF agencies, the Office of
Financial Management, and Clifton Gunderson representatives. If I can answer
any questions, please call me at (202) 366-1992.

Attachment

                                        #

cc: Federal Highway Administrator
    National Highway Traffic Safety Administrator
    Federal Transit Administrator
    Federal Railroad Administrator
    Federal Motor Carrier Safety Administrator
    Director, Bureau of Transportation Statistics




The attached Clifton Gunderson LLP audit report is an excerpt from the FY 2004
Highway Trust Fund (HTF) Financial Report which can be located at
www.fhwa.dot.gov. The Clifton Gunderson LLP audit report makes reference to
the HTF financial statements and other information in the FY 2004 HTF Financial
Report.
